   FAA’S AIR TRAFFIC CONTROLLER OPTIMUM
        TRAINING SOLUTION PROGRAM:
SOUND CONTRACT MANAGEMENT PRACTICES ARE
  NEEDED TO ACHIEVE PROGRAM OUTCOMES

        Federal Aviation Administration
         Report Number: AV-2010-126
        Date Issued: September 30, 2010
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA’s Air Traffic Controller Optimum              Date:   September 30, 2010
           Training Solution Program: Sound Contract
           Management Practices Are Needed To Achieve
           Program Outcomes
           Federal Aviation Administration
           Report Number AV-2010-126

  From:    Jeffrey B. Guzzetti                                  Reply to
                                                                Attn. of:    JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) plans to hire and train nearly
           15,000 new air traffic controllers through fiscal year (FY) 2018 to replace the
           large pool of air traffic controllers who were hired after the 1981 strike and are
           now retiring. In September 2008, FAA awarded a contract to the Raytheon
           Technical Services Corporation (Raytheon) to provide training support for new
           and existing controllers and to assist FAA in modernizing its controller training
           program. The contract for the Air Traffic Controller Optimum Training Solution
           (ATCOTS) is for a period of up to 10 years (with a 5-year base period and
           5 option years) at a total potential cost of $859 million.

           Under terms of the contract, Raytheon provides classroom, laboratory, and
           simulator instruction; training support; course and curriculum development; and
           administrative and program support services at the FAA Academy and air traffic
           facilities nationwide. Key ATCOTS goals for controller training include reducing
           total cost and time, improving quality and consistency, and developing flexible
           training systems that can be adapted to new technologies—particularly those
           related to the Next Generation Air Transportation System (NextGen).

           In January 2009, Representative Jerry F. Costello, Chairman of the House
           Subcommittee on Aviation, requested that we review the ATCOTS program.
           Chairman Costello stated that while ATCOTS could bring positive changes to
           FAA’s training program, given its importance, a better understanding of the
           financial and contractual aspects is needed. Accordingly, our audit objectives
                                                                                                                   2


were to determine (1) whether effective management and contract controls are in
place to ensure program goals are achieved and (2) if the program has improved
training methods currently provided to the controller workforce.

We conducted this review between April 2009 and August 2010 in accordance
with government auditing standards prescribed by the Comptroller General of the
United States. Exhibit A details our scope and methodology. Exhibit B lists the
air traffic facilities we visited or contacted.

RESULTS IN BRIEF
In designing and executing the ATCOTS program, FAA did not fully consider
program requirements. As a result, FAA now faces significant challenges in
achieving the program’s goals. To date, the ATCOTS contract costs and fees have
exceeded baseline estimates by 35 percent during the first year of the contract
(from $81 million to $109 million) 1 and increased by 20 percent during the second
year (from $91 million to $109 million). More importantly, those funds have only
been sufficient to support existing training methods and procedures; innovations,
such as pilot programs for new capabilities to reduce training time and cost, have
not been implemented. This occurred for a number of reasons:

    • During its acquisition planning, FAA did not fully address issues that could
      impact the contract outcomes. For example, FAA awarded the contract
      without mitigating staffing and cost risks identified during the source selection
      review. Specifically, Raytheon’s proposal called for reducing instructor
      staffing levels by 30 percent during the first 3 years of the contract. FAA’s
      management evaluation team identified this reduction as a high risk, indicating
      that there was a 60- to 80-percent likelihood that training needs would not be
      achieved due to the limited staffing hours proposed. However, FAA did not
      require Raytheon to update its staffing proposal.

    • FAA awarded the contract without adequately defining its training
      requirements. The contract solicitation stated that bidders were expected to
      train approximately 4,000 developmental controllers annually and allowed for
      cost adjustments only if that number deviated by more than 10 percent.
      However, FAA underestimated its initial training requirements, including the
      number and types of controllers that Raytheon and other bidders of the contract
      were expected to train. During the first year of the contract alone, Raytheon
      estimated that about 5,620 controllers needed training—41 percent more than
      FAA originally estimated.


1
    According to FAA’s computations, about $7 million of increased costs (excluding fees) for Year 1 occurred because
    the actual labor rates paid by Raytheon were greater than those included in Raytheon’s bid support.
                                                                                   3


 • FAA did not initially implement adequate controls to oversee contractor
   services or to ensure that fees paid for performance were justified. While the
   ATCOTS contract contains an award fee and incentive fee designed to
   motivate contractor performance, FAA did not ensure these remained effective
   mechanisms to control costs as the contract evolved. For example, although
   FAA significantly increased the number of training hours the contractor was
   expected to provide, FAA did not revise the cost target to reflect this change.
   Since FAA never reestablished a realistic cost target based on changes in
   requirements for the first year until near the end of that year, the incentive fee
   was an ineffective mechanism for controlling costs. Further, FAA did not
   include performance measures for earning award fees that were related to the
   goals of the ATCOTS program, such as reducing the total cost of training.
   FAA also initially allowed the contractor to select the performance measures
   and data by which it would be evaluated for earning award fees and did not
   verify whether the measures would help meet the expected outcomes of the
   program.

FAA is taking actions to address many of the issues identified during our audit.
For example, FAA has added additional program staff to oversee the contract and
a new planning tool for evaluating the level of instructor staffing at air traffic
facilities. FAA is also establishing training priorities to ensure that costs remain
within the base estimates. However, unless there is a significant decrease in its
current training requirements, it will be difficult for FAA to achieve the original
ATCOTS program goals or any training innovations without significantly
modifying the existing contract. We are making a series of recommendations for
improving oversight of the ATCOTS contract.

BACKGROUND
In February 2008, FAA began soliciting offers for the ATCOTS contract to
replace two separate contracts supporting the controller training program. On
September 9, 2008, FAA awarded the contract to Raytheon. The performance-
based contract consists of a 5-year base period, worth $437 million, and two
option periods (a 3-year period and a 2-year period), worth $422 million. The
contract includes an award fee for Raytheon meeting acceptable levels of
performance related to training outcomes and quality metrics and an incentive fee
related to the cost of the services provided. The ATCOTS contract also allows
Raytheon to suggest improvements to modernize the controller training program in
areas such as hardware and software modifications, curriculum development and
delivery, web-based training, and technology enhancements. In addition, the
contract includes an option to institute a pilot program that allows these proposed
changes to be tested and validated before being implemented on a larger scale.
While Raytheon is involved with nearly every aspect of controller training, FAA
                                                                                                                      4


retains control for the overall training program as well as for recruiting and hiring
controller candidates, conducting performance verification at the FAA Academy,
and conducting on-the-job training 2 at air traffic facilities.

FAA DID NOT FULLY CONSIDER PROGRAM RISKS AND
REQUIREMENTS DURING ACQUISITION PLANNING
Understanding requirements and mitigating risks are fundamentals of acquisition
planning so that Government agencies can effectively measure a contractor’s
performance, ensure that future adjustments to programs are warranted, and limit
cost increases. However, FAA did not take fundamental steps needed to
accomplish this in planning and executing the ATCOTS acquisition, including
mitigating risks that were evident during the source selection process and
adequately defining the number of controllers who needed training. Those issues
led to unforeseen changes in the contract’s costs and services.

FAA Did Not Address Risks Its Source Selection Team Identified Prior
to Contract Award
While FAA followed its Acquisition Management System (AMS) guidance to
identify potential cost and staffing risks prior to contract award, it did not follow
through—as also specified by AMS—to reduce those risks to an acceptable level.
The risks that FAA’s source selection team noted in the Raytheon proposal
included the following:

    • Instructor Staffing Levels: Raytheon’s proposal called for reducing instructor
      staffing levels by 30 percent during the first 3 years of the contract. FAA’s
      Technical Management Evaluation Team identified this reduction as a high
      risk, indicating that there was a 60- to 80-percent likelihood that training needs
      would not be achieved due to the limited staffing hours proposed. However,
      FAA never required Raytheon to update its staffing proposal. The ATCOTS
      Source Selection Board eventually lowered the risk, in part, because it could
      not definitively conclude that training needs would go unmet due to
      Raytheon’s reduced staffing hours. The Board determined that specific
      Raytheon weaknesses, such as those identified within the transition plan and its
      spoke and hub services delivery structure, could be overcome. Further, the
      Board concluded that Raytheon’s inability to demonstrate knowledge of how
      En Route Automation Modernization (ERAM) could impact training would
      also be overcome when FAA issued training requirements via a detailed Work
      Plan at contract award. 3 Despite the risk initially associated with the proposed
2
    On-the-job training requires a Certified Professional Controller (or CPC) to observe and instruct trainee controllers
    individually as they work a control position at their assigned facility.
3
    For year 1, Raytheon incurred 77,736 more hours than included in its bid estimate due to underestimated ERAM
    training requirements.
                                                                                                                      5


      labor hours, FAA concluded that Raytheon’s technical and management
      approach was ultimately the same as its closest competitor and decided to use
      lowest costs as the final determinate for awarding the contract.

    • Costs: Raytheon’s cost proposal was nearly $358 million, or 29 percent lower
      than FAA’s own independent Government cost estimate (IGCE). 4 According
      to FAA guidance, a deviation of more than 15 percent from the Government’s
      estimate requires FAA to address any estimated cost discrepancies. For
      example, an acceptable remedial action would have been to make Raytheon
      aware of any potential errors and ask for a revised proposal. However, FAA
      never took actions to remedy the discrepancy and awarded Raytheon the
      contract based on a proposal for fewer hours. Additionally, after the contract
      was awarded, the Office of Financial Controls—an independent review team
      reporting to FAA’s Chief Financial Officer—recommended that the ATCOTS
      program office address the 29-percent cost difference between the cost
      proposal and IGCE. At the time of our review, however, the program office
      had not responded to the review team’s recommendations.

FAA DID NOT ADEQUATELY DEFINE ITS TRAINING
REQUIREMENTS
Problems with the execution of the ATCOTS contract were further compounded
by poorly defined requirements. FAA’s contract solicitation stated that bidders
were expected to train approximately 4,000 total developmental controllers
annually. It also allowed for cost adjustments only if the total number of
developmental controllers in training per year deviated by more than 10 percent.
However, FAA underestimated its initial training requirements, including the
number and types of controllers that Raytheon and other bidders of the contract
were expected to train. This included training for certified controllers transferring
to different facilities that were not included in FAA’s original baseline training
estimate. These controllers, known as certified professional controllers in training
(CPC-ITs), must train and certify at their new facilities before they are allowed to
control air traffic at that location. During the first year of the contract, Raytheon
estimated there were a total of 5,620 controllers who needed training, or
41 percent more than FAA originally estimated. 5

FAA also did not have a sufficient method for updating its training requirements
on an ongoing basis. The contract requires FAA to specify the training and
administrative services it needs the contractor to provide through an Annual Work

4
    The Government uses independent cost estimates to determine if contractors’ bids are reasonable.
5
    FAA disagrees with Raytheon’s estimate, claiming there were only 4,375 total controllers in training during the first
    year of the contract. However, FAA’s figure only includes those controllers in training as of the end of August
    2009; it does not include those controllers who either completed or discontinued training prior to that date.
                                                                                   6


Plan (AWP), which is updated monthly by the FAA Academy and individual air
traffic facilities. However, the ATCOTS program office did not provide clear
guidance to air traffic facilities regarding how to submit the data or what types of
training and administrative services should be requested. This led to wide
variances in facility requests, including some facilities not requesting contract
support even though they needed it.

The lack of clear requirements resulted in some facilities not receiving adequate—
or, in some cases, any—support from the contractor. These included facilities
with longstanding training support issues and those in need of training on new
technologies, such as the following:

 • New York Center: Facility managers stated that there were not enough
   contract instructors to meet the training needs of the facility, requiring them to
   pull 10 controllers from managing traffic to help conduct training, which
   resulted in increased overtime at the facility.

 • New York Terminal Radar Approach Control (TRACON): Facility
   officials stated that the TRACON did not have enough contract support to train
   the developmental controllers assigned to the facility and did not anticipate
   receiving additional support. Unlike the New York Center, however, they
   stated that due to staffing issues, they could not pull controllers from managing
   traffic to help with training. This delayed training for developmental
   controllers in the facility’s lab by 5 weeks.

  • Denver Tower: The facility was scheduled to receive a new training simulator
    last summer, requiring contract support to operate the simulator and build
    training scenarios for new controllers to practice. However, FAA and
    Raytheon officials at the facility stated that there were not enough contract
    instructors to meet current training demands and that, due to an instructor
    hiring freeze instituted by Raytheon, they were not scheduled to receive
    additional support to operate the simulator.

In addition, Raytheon organizes its personnel at terminal facilities under a “hub
and spoke” system to take advantage of the geographical proximity of facilities,
allowing Raytheon personnel to provide services at multiple locations. For
example, contractor personnel at the Cleveland, Ohio, Tower hub can provide
training and support services to smaller facilities in Akron, Columbus, Mansfield,
Toledo, and Youngstown. However, some terminal facilities under Raytheon’s
hub and spoke system were not receiving any training or administrative support.
These facilities included the following:
                                                                                  7


 • John F. Kennedy (JFK) Tower: Under Raytheon’s staffing model, the JFK
   Tower was supposed to receive contract support from personnel located at the
   New York TRACON. However, because the TRACON did not have enough
   contract support to meet its own training needs, the Tower was left with no
   training support, even though 50 percent of its workforce was developmental
   controllers.

 • Las Vegas Tower: The Las Vegas Tower was not receiving support despite the
   fact that it is in the same building as the Las Vegas TRACON, which was
   receiving support. While the Tower’s management officials had not requested
   Raytheon’s services, their understanding was that the Tower was not under the
   ATCOTS contract, so it could not receive service.

 • Akron/Canton Tower: At the time of our review, half of the 26 controllers
   employed at the Tower were new controllers in training. Despite this, the
   facility did not receive any Raytheon support from the Cleveland Tower and
   planned to use two of its own controllers to conduct classroom training.

FAA’s Underestimated Requirements Resulted in Increased Contract
Costs and Reduced Services
Because FAA underestimated its training requirements, Raytheon requested an
equitable adjustment to the contract and implemented a hiring freeze for additional
instructors and other personnel at FAA facilities. FAA eventually agreed to the
equitable adjustment, increasing the first year cost and fees of the contract by
35 percent—from $81 million to $109 million. The second year amount also
increased from $91 million to $109 million, an increase of 20 percent. To partially
offset these cost increases and in anticipation of fewer controller retirements, FAA
and Raytheon agreed to further service reductions. FAA stated that it also made
this decision because there were 28 percent fewer retirements from the controller
workforce in FY 2009 than the Agency had projected (520 actual retirements
versus 726 projected retirements). Therefore, FAA will reduce the number of new
controllers it will hire for FY 2010, from 1,702 to 1,027 (a drop of nearly
40 percent), and will also reduce the number of introductory training classes at the
Academy.

As a result of this reduction in new controller hiring, coupled with a limit on the
program’s funding, in January FAA and Raytheon reduced the contractor’s full-
time equivalent (FTE) employees at the FAA Academy and air traffic facilities by
nearly 350. Most of the reduction took place at individual facilities, where
251 FTEs were reduced, with the majority of the cuts occurring at en route centers.
As shown in table 1, some facilities lost more than half of their Raytheon support.
                                                                                    8


Table 1. Examples of Raytheon Service Reductions at Select Air Traffic Facilities
                       Previous Contractor       New Contractor
       Facility                                                        % Adjustment
                       Staffing Level (FTEs)      Staffing Level
Minneapolis Center              22.7                    6.0                -73.6%
Seattle Center                  27.4                   11.0                -59.9%
Fort Worth Center               26.9                   11.0                -59.1%
Chicago Center                  26.7                   17.0                -36.3%
Source: FAA/Raytheon

Along with these reductions, FAA and Raytheon also redistributed training
support and added staff to 39 facilities, including the JFK, Denver, and Las Vegas
Towers. FAA is attempting to resolve future requirements issues by negotiating
with Raytheon on ways to better determine its training needs and establishing
training priorities to ensure that costs remain within the base estimates. FAA is
also refining how its requirements will be communicated from the field to the
contractor by providing additional guidance to facilities and implementing new
oversight measures over the AWP. Finally, FAA implemented a planning tool that
allows the Agency to evaluate instructor staffing at its air traffic facilities and
make appropriate adjustments.

FAA’S OVERSIGHT CONTROLS AND CONTRACTOR
PERFORMANCE MEASURES DID NOT ACCOUNT FOR
SERVICES PROVIDED OR REFLECT PROGRAM GOALS
Effective management oversight ensures that the contractor provides quality
services and that the program meets financial and outcome goals. However, FAA
did not implement effective controls to oversee the contract or establish
performance measures focused on program goals with justified award fees.

FAA Did Not Initially Have Effective Oversight of Services Provided
FAA did not initially have effective controls in place to monitor the quality of
services provided by the contractor or to make modifications as needed. The
contract requires FAA to conduct semi-annual evaluations of the quality of
Raytheon personnel at the FAA Academy as well as individual air traffic facilities.
While evaluations were being performed at the FAA Academy, most air traffic
control facilities were not notified of this requirement until midway through the
first year of the program. In addition, most of the facilities that then completed the
evaluations did not send the results to the program office for review. This
prevented the program office from identifying training and administrative
problems and taking appropriate corrective actions.
                                                                                                                       9


FAA also did not have controls in place to ensure it received services as billed by
Raytheon, such as requiring documentation for costs claimed. During the first
year of the contract, the ATCOTS program office authorized payment for
11 contractor invoices, totaling $45 million, without the FAA Academy verifying
whether the services billed were actually provided. While the FAA Academy was
subsequently provided with staff to review invoices, Academy officials stated that
they could only verify work performed by Raytheon in the classroom or
simulators. They could not verify billed hours that occurred either before or after
this formal instruction took place because much of the contractor’s class
preparation was done outside the facility. As a result, Academy officials could
only estimate whether the hours billed were reasonable. In addition, some air
traffic facility officials stated that they were not reviewing contractor invoices at
all and had not been instructed by the program office to verify whether the
services for hours billed by Raytheon were actually provided.

Finally, FAA did not ensure there was enough qualified acquisition personnel to
administer the contract. For example, the ATCOTS program office has seen
significant turnover in its staff but did not fill key positions to oversee the
contractor. Since April 2009, the program office has had three program directors.
FAA is aware of the need for additional resources in the program office to
effectively oversee the contract and is adding a program lead, a permanent
contractor officer technical representative, and a quality assurance specialist.

FAA Used Ineffective Incentive and Award Fees
Motivating contractor excellence for performance-based acquisitions includes
using monetary awards, such as incentive fees, to control costs. However, FAA
did not adhere to its own contracting criteria or follow guidance from the Office of
Management and Budget (OMB) when designing its incentive and award fees.
These criteria emphasize that incentives should reward contractors for excellent
performance in reaching key program goals and that this performance should be
measured in terms of quality and timeliness in addition to controlling costs. 6

In awarding the ATCOTS contract, FAA used an incentive fee to reward the
contractor for keeping costs near or below the Government’s established cost
target for the first year of the contract. However, because FAA added a significant
number of additional training hours after contract award, first-year costs far

6
    According to FAA’s AMS, award fees should be designed to motivate the contractor by offering additional profit for
    excellent performance in key areas that support the Government’s desired acquisition outcomes. OMB guidance
    also requires that agencies consider an incentive for performance-based acquisitions that is most likely to motivate
    efficient and economical performance and that this incentive fee should be used when a cost target can be pre-
    determined and a formula can be used to adjust the negotiated fee over an established cost range. OMB guidance
    also stipulates that an award fee with performance measures designed to encourage economical performance should
    be considered when it is not feasible to determine objective cost targets to motivate the contractor through incentive
    fees.
                                                                                                           10


exceeded the fixed target for earning incentive fees. Since FAA did not
reestablish a realistic cost target based on the changes in requirements until near
the end of the first year, the incentive fee was an ineffective mechanism for
controlling costs. FAA awarded the contractor a portion of the incentive fees
(1.5 percent) based on the actual requirements and associated costs incurred, for
the first year of the contract even though the cost of the contract increased by
44 percent over original target cost.

In addition to using an incentive fee, FAA used award fees to motivate contractor
performance. However, during the first year of the contract, FAA allowed the
contractor to both establish the standards of performance required to earn the
award fee and select the data by which the contractor would be evaluated. 7 FAA’s
program officials were unfamiliar with implementing a performance-based
contract and stated that while the contractor should have significant leeway when
implementing its methodology, they intended to revise the performance measures
for future performance evaluation periods. However, allowing the contractor to
simply use its own measures conflicts with FAA contracting guidance stating that
the Government should evaluate the performance measures before awarding the
contract to ensure they are measurable and likely to improve the outcomes of the
program. 8

As a result, FAA rewarded Raytheon for training tasks that relied on significant
FAA efforts to meet the threshold for receiving an award fee. For example, only
FAA has the authority to conduct on-the job-training, the quality of which impacts
student pass rates. Although in evaluating this measure, FAA acknowledged its
own “significant contribution” toward achieving the student pass rates, it awarded
Raytheon 90 percent of the award fee pool set aside for meeting this measure.
This conflicts with AMS guidance, which states that the contractor should not be
rewarded for work performed by the Government.

In total, FAA awarded Raytheon 91.9 percent of the award fee pool available in
the contract for the first year for measures that were not significantly related to
improving performance or achieving desired outcomes of the program. For
example, a key goal of the ATCOTS program is to provide training to all air traffic
controllers regardless of their location. Yet, the performance measure for staffing,
which was established by Raytheon, only requires the contractor to staff
95 percent of training facilities adequately.

Prior to contract award, FAA’s internal review team warned that this 95 percent
target would not ensure that hard-to-staff facilities received adequate training

7
    The first evaluation period for computing award fees was 12 months (Contract Year 1). Subsequent evaluation
    periods are 6 months each.
8
    FAA’s AMS Procurement Guidance on Incentive Contracts.
                                                                                                               11


support. However, FAA never changed this measure. As a result, several high-
traffic facilities essential to the National Airspace System—such as New York
Center and Denver TRACON—experienced significant instructor staffing
shortages that compromised the training programs at each location. Despite these
staffing shortages, Raytheon was able to demonstrate that it met the 95-percent
standard, and FAA awarded 90 percent of the award fee associated with this
measure. Table 2 shows our analysis of award fees paid for problematic
performance measures during the first year of the contract.

           Table 2. OIG Analysis of Award Fees Paid for Year 1 Measures
                                    Problems with Period 1 Performance Metrics
                                                                        Inaccurate      Raytheon        % of
Performance                                                                 or          rewarded      Available
Measure               Inadequate link to         Fails to motivate      incomplete      for FAA’s     Award Fee
(Weight)                program goals         excellent performance    data sources       efforts       Paid 9
INSTRUCTOR
STAFFING
EFFICIENCY
(35%)
                              •                         •                   •                           90.0%

INSTRUCTOR
EVALUATION
SCORES
(15%)
                              •                         •                   •                           96.0%

STUDENT
ASSESSMENT
SCORES
(10%)
                              •                         •                                               100.0%


STUDENT
PASS RATES
(15%)                                                   •                   •              •            90.0%


TIME TO
TRAIN (25%)                   •                         •                   •              •            90.0%


Source: OIG analysis of ATCOTS contract
                                                                                         TOTAL          91.9%



After negotiating with Raytheon, FAA revised the performance measures for the
second evaluation period. However, the new measures still did not ensure that
contractor performance was linked to the program outcomes, and some were so
easy to achieve that they normally would not warrant a financial reward. For
example, one revised performance measure allowed Raytheon to earn a financial
award if as few as half of all developmental controllers at terminal facilities
completed training on time. However, according to an FAA program manager, the
percentage of terminal developmental controllers who complete training on time
was historically higher than 50 percent. As a result, this measure requires

9
    The ATCOTS Performance Evaluation Plan contains a provision that allows FAA to reassign up to 35 percent of the
    award fee pool per period for unilaterally directed tasks. FAA has not implemented the clause for any of the
    completed performance periods.
                                                                                                                  12


Raytheon to achieve a passing rate that is actually lower than the historical
average and is not an incentive for accomplishing exceptional performance.

In total, half of the revised performance measures awarded Raytheon fees for
mirroring the previous contractor’s performance levels rather than encouraging it
to improve upon historical performance. As a result, FAA may potentially award
Raytheon 45 percent of the total award fee for meeting past performance levels,
leaving little in the award-fee pool to encourage the contractor to exceed
expectations. 10

FAA recently finalized the performance measures for the third performance
evaluation period, even though this finalization occurred more than halfway
through that period. The ATCOTS performance evaluation plan requires that any
changes to the performance measures be established at least 45 days before the
start of an evaluation period. FAA claims that the performance measures for the
third period show vast improvement over the prior two periods. However, except
for two measures to improve cost efficiency, the proposed measures still do not
adequately link to the desired outcomes of the program or motivate excellent
contractor performance. For example, six of eight revised performance measures
would award Raytheon for meeting basic contract requirements, such as
management reports and other tasks, rather than assess whether the contractor
measurably improves the quality and timeliness of the training. The performance
measures include tasks such as:

     • establishing a monthly Joint Risk Board tasked with monitoring and tracking
       program risks;

     • delivering a new report on instructor time use for 16 separate instructor tasks—
       successful delivery results in “exceeds” for this measure; and

     • incorporating FAA-supplied population data by site, defining algorithms into a
       model, and running the model to quantify student training volume.

All of the eight measures for the third period require additional work and must be
funded directly through the contract rather than with the award fee, which is
intended to motivate contractor performance.

Additionally, four performance measures use “input factors,” a type of evaluation
criteria that FAA award fee guidance warns is less desirable than other types of
performance measures. 11 Input factors require the contractor to complete

10
     FAA has not yet provided us with the actual incentive and award fees provided to Raytheon for Award Fee Period 2.
11
     FAA’s Award-Fee Contracting Guidance, dated September 28, 2007, states that input factors are not always true
     indicators of the contractor’s ultimate performance and so should be relied on with caution.
                                                                                                                  13


intermediate processes or procedures, which are not always true indicators of the
contractor’s performance in relation to the program goals. For example, one
performance measure assesses whether the contractor can submit a quality
management program and quality manual; this measure evaluates intermediate
processes rather than the quality of the program itself. FAA’s latest set of
performance measures is not measureable or sufficiently designed to appropriately
incentivize the contractor to improve the outcomes of the training program.

We estimate that $22.6 million of funds could be put to better use by improving
the award fee and incentive fee structures. 12 This includes $11.9 million in award
fees put to better use if FAA develops performance measures that relate to the
desired outcomes of the program, such as improving training quality and reducing
costs; motivates improved contractor performance; and establishes realistic
performance targets. In addition, $10.7 million in incentive fees can be put to
better use if the Agency incorporates realistic and objective cost targets that will
motivate the contractor to control costs.

Innovations to Controller Training Methods Have Not Been Realized
A key goal of the ATCOTS program is to develop new training technologies and
procedures to meet the changing environment in which controllers operate.
However, the $859 million baseline cost of the contract does not include funding
to make large-scale, technological improvements to the training program or to
train controllers on future NextGen technologies, such as Required Navigational
Performance (RNP/RNAV). 13

Under terms of the contract, Raytheon is only required to mirror the services that
were provided by previous contractors. The consolidation of two existing
contracts into a single training contract was intended to enable the contractor to
better integrate training activities and suggest ways to improve the training
process. However, any change to the training program, such as developing a new
training curriculum, requires FAA approval before implementation. Because of
this clause, Raytheon has not expanded its training and administrative services
beyond those offered by previous contractors. While Raytheon submitted five
proposals for redesigning parts of the training program, FAA did not approve any
of them due to the increasing costs of the contract and eliminated the planned pilot

12
     Detailed computations of the savings estimates are available upon request and are excluded from this report for
     proprietary reasons. The $22.6 million estimate represents incentive and award fees (funds) that would be more
     effectively used by designing realistic cost targets based on actual requirements and by designing performance
     measures that are linked to the overall programmatic goals of the ATCOTS program. The incentive fee would
     encourage excellence in contractor performance by rewarding Raytheon for keeping costs near or below the target
     and meeting the ATCOTS strategic goal of reducing training costs. The award fee structures, based on measurable
     criteria for improving effectiveness and efficiency, would better achieve FAA’s program goals for modernizing the
     training program.
13
     RNAV and RNP provide a basis for designing and implementing flight paths that can enhance airspace capacity.
                                                                                    14


program for introducing new training techniques and technologies because it
would have required costs outside of the current contract. FAA and Raytheon are
discussing large-scale changes to the controller training program, such as
redesigning the tower training curriculum. If changes are made, however, it would
require expanding the current contract and would likely result in cost increases.

Unless there is a significant decrease in its current training requirements, it will be
difficult for FAA to achieve the original ATCOTS program goals or any training
innovations without significantly modifying the existing contract. As a result,
before the end of the contract base period in 2013, FAA will need to (1) determine
if the existing contract mechanism can be effectively modified to achieve
ATCOTS program goals within the current estimate of $859 million or (2) update
cost estimates and requirements of its training needs and develop criteria for
determining whether the Agency should exercise options in the contract. These
actions will put $422 million in option year funds to better use.

CONCLUSION
FAA faces significant challenges in executing its plans to hire and train
15,000 new controllers by 2018. ATCOTS is a critical component of this effort.
Unless FAA exercises sound contract management practices and holds contractors
accountable for achieving program outcomes, FAA runs the risk of failing in its
efforts to maintain a sufficient cadre of well-trained, qualified controllers to safely
and efficiently meet the growing demands of the National Airspace System.

RECOMMENDATIONS
We recommend that FAA:

1) Determine (a) if the existing contract mechanism can be effectively modified
   to achieve ATCOTS program goals within the current estimate of $859 million
   or (b) update cost estimates and requirements for its training needs and develop
   criteria for determining whether the Agency should exercise options in the
   contract.

To adequately identify its ongoing training requirements and to provide sufficient
oversight during the remaining base period, we recommend that FAA:

2) Evaluate Raytheon’s staffing methodology to determine if facilities are
   receiving sufficient training and administrative support and develop an action
   plan for addressing those locations that need additional support.

3) Implement procedures to ensure that the Academy and facilities are properly
   entering training requirements into the Annual Work Plan.
                                                                                   15


4) Develop performance measures for award fees that directly link Raytheon’s
   performance to improvements in the controller training program and goals of
   the ATCOTS program.

5) Develop improved and reliable performance baselines and benchmarks in
   formulas for computing award fees to better compare and measure the
   contractor’s performance.

6) Implement internal procedures to require independent verifications of whether
   the contractor is achieving its performance measures.
7) Modify the contract to include incentive fees with predetermined cost targets
   based on accurately defined requirements; if this is not feasible, then include a
   performance measure(s) that provides an award fee for economical contract
   performance.
8) Ensure that the ATCOTS program office has enough qualified personnel to
   oversee the contractual, financial, and operational aspects of the program.

9) Develop a short- and medium-term “roadmap” detailing potential changes to
   its controller training program and the impact those changes will have on the
   ATCOTS contract. The roadmap should include the impact that NextGen and
   other modernization programs will have on training new and existing
   controllers.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on August 24, 2010, for comment and
received FAA’s response on September 17, 2010. In its response, FAA noted that
it faced considerable challenges in implementing ATCOTS, including
transitioning from a time-and-materials contract to a performance-based contract
and underestimating the full scope of its training requirements. FAA also stated
that it has put new processes and tools in place to improve the ATCOTS program
and its controller training program. These include developing a resource
surveillance tool and training priority index for each air traffic facility, revamping
its formal processes for updating its Annual Work Plan requirements for controller
training, and issuing task orders to transform the controller training program.
These actions represent positive steps towards meeting ATCOTS goals; however,
we agree with FAA’s assessment that it is not clear whether these initiatives will
enable the Agency to meet its training needs within the existing cost of the current
contract.
                                                                                 16


In addressing our recommendations, FAA fully concurred with all but one. FAA
partially concurred with recommendation 7, stating that it was not feasible to
establish predetermined cost targets based on accurately defined requirements due
to multiple factors outside the control of the ATCOTS program office, such as
hiring freezes and class cancellations. However, as we recommended, FAA
proposed including award fee performance measures beginning in the third period
that will require more economical contractor performance each contract year.

ACTIONS REQUIRED
FAA provided acceptable actions and timeframes for recommendations 1, 4, 5, 6,
7, 8, and 9, and we consider them resolved but open until the planned actions are
completed. For recommendations 2 and 3, FAA has already taken actions
consistent with the recommendations, and we consider them closed.

We appreciate the courtesies and cooperation of FAA and Raytheon
representatives during this audit. If you have any questions concerning this report,
please contact me at (202) 366-0500 or Dan Raville, Program Director, at (202)
366-1405.

                                         #

cc: FAA Deputy Administrator
    Anthony Williams, AAE-001
    Martin Gertel, M-100
                                                                                 17



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. As required by those standards, we obtained evidence that we
believe provides a reasonable basis for our findings and conclusions based on our
audit objectives. The audit was conducted between April 2009 and August 2010,
and included site visits to the FAA Academy in Oklahoma City, OK, 30 out of
295 Terminal Services facilities (Towers and TRACONs), and 7 out of 21 En
Route Centers. A list of air traffic facilities we visited or contacted during this
audit, which were judgmentally selected based on the geographic location of the
facilities and number of developmental controllers at those sites, can be found at
exhibit B.

To determine whether effective controls are in place to ensure that the training and
financial goals of the program are met, we reviewed the ATCOTS contract and
related documents to determine what contractual controls exist for the program.
This included reviewing the contract terms and subsequent modifications, the
contractual performance measures, and pre-contract award documents. We also
interviewed officials from FAA Headquarters, including the ATCOTS program
office, the Air Traffic Organization’s Terminal and En-Route Services Branches,
and pre-contract award review teams, as well as training and contracting officials
from the FAA Academy to determine the specific controls that were implemented
to oversee the program. While at the Academy, we also reviewed 11 invoices
provided to FAA by Raytheon at the time of our April 2009 site visit, training
plans, and evaluation forms to evaluate the controls over the program. In addition,
we conducted site visits and interviewed FAA air traffic officials at air traffic
control facilities (see exhibit B) to determine if effective controls were in place
and properly working. Finally, we met with Raytheon officials to examine how
FAA oversees their work and the interaction between the two organizations.

To determine how the training program will differ from what was provided the
controller workforce, we reviewed the contract to examine what specific changes
and costs are included in the contract as well as the procedures for making changes
to the program. We also interviewed FAA and Raytheon officials from
Headquarters, the FAA Academy, and at individual air traffic facilities regarding
the progress made in changing the training program, as well as the service the
contractor provides. In addition, during site visits to the FAA Academy and air
traffic facilities we interviewed FAA and Raytheon officials and reviewed
documentation provided by Raytheon to determine how controller training has
changed at those facilities since the implementation of ATCOTS and whether
these facilities were receiving adequate service from the contractor.



Exhibit A. Scope and Methodology
                                                                        18


EXHIBIT B. FAA AIR TRAFFIC FACILITIES VISITED OR
CONTACTED


Potomac TRACON                            Washington En-Route Center

New York En-Route Center                  John F. Kennedy Tower

LaGuardia Tower                           New York TRACON

Albuquerque Tower/TRACON                  Albuquerque En-Route Center

Portland (OR) Tower/TRACON                Las Vegas TRACON

Las Vegas Tower                           North Las Vegas Tower

Los Angeles En-Route Center               Los Angeles Tower

Southern California TRACON                Seattle TRACON

Seattle Tower                             Santa Monica Tower

Burbank Tower                             San Diego Tower

Santa Barbara Tower/TRACON                Tampa Tower/TRACON

Southwest Florida Tower/TRACON            Miami En-Route Center

Fort Lauderdale Tower                     Cleveland En-Route Center

Cleveland Tower/TRACON                    Canton/Akron Tower/TRACON

Toledo Tower/TRACON                       Columbus (OH) Tower

Ashville (NC) Tower                       Raleigh Tower

Charlotte Tower/TRACON                    Denver En-Route Center

Denver TRACON                             Denver Tower




Exhibit B. FAA Air Traffic Facilities Visited or Contacted
                                                                                 19



EXHIBIT C. REDUCTIONS IN RAYTHEON SUPPORT AT SELECT
FAA AIR TRAFFIC FACILITIES

                               Previous                New
                              Contractor           Contractor        Percentage
         Facility
                             Staffing Level       Staffing Level     Adjustment
                                (FTEs)               (FTEs)
Anchorage Center                  14.2                  0.0             -100%
Des Moines
Tower/TRACON                       1.7                 0.2             -88.2%
Minneapolis Center                 22.7                6.0             -73.6%
Seattle Center                     27.4                11.0            -59.9%
Fort Worth Center                  26.9                11.0            -59.1%
Kansas City Center                 16.7                7.0             -58.1%
Cleveland Center                   17.2                12.0            -55.9%
Houston Center                     20.5                10.0            -51.5%
Baltimore-Washington
Tower                              2.0                  1.0            -50.0%
Washington Dulles
Tower                              1.8                  1.0            -44.4%
Portland (OR)
Tower/TRACON                       1.8                  1.0            -44.4%
Washington Reagan
Tower                              1.7                 1.0             -41.2%
Chicago Center                     26.7                17.0            -36.3%
Atlanta Center                     37.1                29.0            -21.8%
Los Angeles Tower                  8.5                 7.0             -17.6%
Oakland Center                     26.7                24.0            -10.1%
New York Center                    27.4                25.0             -8.8%
Source: FAA/Raytheon




Exhibit C. Reductions in Raytheon Support at Select FAA Air Traffic Facilities
                                                                  20




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


   Name                                        Title

   Terrence Letko                              Program Director

   Daniel Raville                              Program Director

   Frank Danielski                             Project Manager

   Masha Pastuhov-Pastein                      Project Manager

   Christopher Frank                           Senior Auditor

   Thomas Wiener                               Senior Analyst

   Katherine Yutzey                            Senior Analyst

   Doneliya Deneva                             Auditor

   David Lahey                                 Auditor

   My Phuong Le                                Analyst

   Christina Lee                               Analyst

   Andrea Nossaman                             Writer/Editor




Exhibit D. Major Contributors to This Report
                                                                                        21



APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:          September 17, 2010
To:            Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
               Program Audits
From:          Clay Foushee, Director, Audit and Evaluation
Prepared by: Anthony Williams, x79000
Subject:       OIG Draft Report: Air Traffic Controller Optimum Training Solution: Sound
               Contract Management Practices Are Needed To Achieve Program Outcomes


The FAA remains steadfastly committed to ensuring National Airspace System (NAS) safety
and controller workforce viability. The Air Traffic Controller Optimum Training Solution
(ATCOTS) contract provides a necessary supplement to FAA instructor and training
resources. Since fiscal year 2005, consistent with the Controller Workforce Plan, the agency
has hired more than 8,200 controllers. Over 4,400 of them are now fully qualified as certified
professional controllers (CPCs). The Federal Aviation Administration (FAA) has successfully
produced new controllers at the volume and speed described in the plan and replaced about 28
percent of the workforce with a new generation of fully qualified controllers - while
maintaining exceptionally high certification standards.

The FAA faced considerable challenges in transitioning from two legacy Time-and-Materials
programs to the FAA’s first-ever Performance-Based contract for air traffic training. As noted
in the report, Raytheon’s proposal called for a 30 percent reduction in instructor staffing
levels during the first year of the contract. However, to ensure operational safety and training
continuity, the FAA prescribed contractor performance requiring a nearly one-for-one
transition of contract staff. Also, because of a rapidly changing training environment, the
FAA underestimated the full scope of training requirements. In addition, the contract
explicitly required Raytheon to mirror previous training support levels and focus on program
transition and not on large-scale learning transformation. While these issues contributed to
higher-than anticipated costs, FAA’s management focused first and foremost on maintaining
system safety.




Appendix. Agency Comments
                                                                                              22


The FAA remains committed to achieving intended economies and efficiencies as it gains
experience using this type of contracting mechanism in this context. FAA has put into place
new processes and tools that position the agency for achieving these economies and
efficiencies while improving the training process and outcomes. These efforts are responsive
to many of the issues discussed in the draft report and could be more fully discussed in the
Office of Inspector General’s (OIG) final report. These include:

   •   Establishing the Technical Training Organization. The FAA hired a Vice President for
       Technical Training and is staffing the organization with highly qualified and
       motivated employees. These employees possess competencies such as business
       management, program analysis, communications, metrics oversight and project
       execution. The Air Traffic Organization (ATO) Technical Training also introduced a
       strategic framework for training and placed increased management emphasis on
       supporting customer requirements.

   •   Developing formalized processes. The FAA revamped - and in some cases, created -
       formal processes delineating how the agency determines and updates Annual Work
       Plan requirements for controller training, communicates changes to training
       requirements, adjusts staffing levels, coordinates facility visits, disseminates program
       communications and answers customer questions.

   •   Creating joint work groups. To improve collaboration and communication, the FAA
       formed a joint Risk and Opportunities Management Board and a joint
       Communications Working Group. These groups meet routinely to discuss matters
       from the contractor or from the government perspective and jointly work toward
       resolving the issues.

   •   Launching new work tools to monitor resources. The FAA developed a Resource
       Allocation Tool and training priority index for each air traffic facility. Also, the
       Resource Surveillance Tool allows facilities to independently (and on-demand)
       forecast or evaluate Raytheon’s staffing methodology to determine if the sites are
       receiving sufficient training and administrative support.

   •   Improving Acceptable Performance Levels for Award Fees and realigning program
       metrics. The contract’s requirement for continuous reevaluation of award fee criteria
       every six months ensures that the FAA retains the flexibility to adjust and improve
       contractor performance measurement over time. The FAA and Raytheon conducted in-
       depth discussions on the goals of the ATCOTS program and as a result, the contractor
       has aligned its goals and initiatives with the ATO Technical Training mission and
       strategic framework. Per the contract, the FAA continues to retain 35 percent of the
       award fee for metrics of its own choosing.

   •   Commissioning learning transformation projects. The ATCOTS Program Office spent
       the first and second contract years establishing processes and the framework for
       learning transformation projects. The FAA has issued task orders for the first
       programs under learning transformation and anticipates the initiatives will result in


Appendix. Agency Comments
                                                                                                     23


        reduced expenditures in the future and improved training effectiveness and efficiency.
        Transformation remains a key priority for Contract Year Three.

We understand the OIG’s review team conducted much of its work during the contract’s first year
while the primary focus was on the formidable requirements of transitioning from the old
contracts and not on training transformation. While it is not yet clear if the results of the initiatives
listed above will enable the FAA to meet training needs within the existing budget parameters for
the life of the contract, each of these steps are appropriate given the FAA’s objectives and the
constraints presented by the ATCOTS contract acquisition process.

The following comments are provided in direct response to OIG recommendations:

Recommendation 1: Determine (a) if the existing contract mechanism can be effectively
modified to achieve ATCOTS program goals within the current estimate of $859 million or
(b) update the cost estimates and requirements of its training needs and develop criteria for
determining whether the Agency should exercise options in the contract.

FAA Response: Concur. The challenges the ATCOTS Program Office successfully overcame
during the first two contract years demonstrate that the existing contract mechanism provides
an adequate framework to support air traffic training development and delivery as well as
learning transformation. While costs have challenged the program office, and made it difficult
to execute to the $859 million baseline, the program office directed numerous initiatives to
rein in costs and provide more effective vendor performance. The ATO Technical Training
office initiated a number of transformation efforts such as redesigning Air Traffic Basics,
TRACON Academy training and En Route facility training, that are intended to reduce costs
while improving training outcomes. The FAA may re-baseline the contract if the increase in
requirements becomes unsustainable, but cost increases under the government’s direction
should not be used to determine whether the FAA exercises its options in the contract.
Instead, the decision on whether ATCOTS continues under the option years will be based on
the government’s satisfaction with contractor performance, which the FAA continues to
evaluate through the Quality, Metrics and Risk programs. Estimated completion date:
September 30, 2011.

Recommendation 2: Evaluate Raytheon’s staffing methodology to determine if facilities are
receiving sufficient training and administrative support. Develop an action plan for addressing
those locations that are in need of additional support.

FAA Response: Concur. The FAA has completed actions that fulfill the intent of this
recommendation. The ATCOTS Program Office developed a resource allocation tool and
training priority index for each air traffic facility based on numerous factors that include air
traffic complexity, staffing, training load and impact to the NAS. The FAA can use this data-
based analytical tool to validate a facility’s staffing request and enable the program office to
easily and rapidly target resource allocation to ensure key needs are met. It is important to
recognize that current and projected funding levels cannot fulfill all training requests at all
facilities. The FAA can also employ the tool to validate Raytheon’s staffing methodology and
change requests. The program office also has procedures to redirect resources when
warranted.


Appendix. Agency Comments
                                                                                              24


For example, in May, ATO Technical Training successfully reallocated staffing to the
Philadelphia district due to a documented and validated need for additional support. The FAA
also designed a surveillance tool for field training managers and the Academy team that
captures contractor hours (by month, by position, by site, by district, by service area) and
provides an analysis that shows impact of staffing adjustments. Additionally, the program
office has assigned tower and terminal radar approach control facilities to districts and has
given district managers the flexibility to staff resources based on local requirements, taking
into account FAA self-performance ability and unique operational circumstances, such as a
new runway or an airspace reconfiguration, at the sites. Actions pursuant to this
recommendation are considered complete.

Recommendation 3: Implement procedures to ensure that the Academy and facilities are
properly entering training requirements into the Annual Work Plan.

FAA Response: Concur. The ATCOTS Program Office has implemented a more straight-
forward process to communicate Contract Year 3 requirements in the Annual Work Plan as
well as monthly updates. This process is documented, coordinated with the contractor and has
been tested prior to the start of Contract Year 3. The program office continues to evaluate
using automation, other databases, and the web to improve data entry of training requirements
and continual resource monitoring. Actions pursuant to this recommendation are considered
complete.

Recommendation 4: Develop performance measure for award fees that directly link
Raytheon’s performance to improvements in the controller training program and goals of the
ATCOTS program.

FAA Response: Concur. Cost efficiency, completion of training transformation initiatives,
individual competency, and training quality are all measures for award fees. These measures
are linked to the program’s Performance Evaluation Plan and are aligned with the ATO
Technical Training strategic framework. The ATCOTS Program Office concurs and has
already revised Period Four metrics (September 2010 to March 2011) to evaluate underlying
processes and to better connect to program goals. The program office adjusts criteria for each
six-month performance period based on focus areas determined by the FAA, and those
measures were the key requirements at the time. The FAA’s approach to revise award fees
addresses two factors: (1) to define metrics for which the contractor is responsible, and (2) to
adopt metrics that evaluate training efficiency and effectiveness that are quantifiable through
gathered data, which the ATCOTS Program Office mandated during previous performance
periods. Estimated completion date: September 30, 2011.

Recommendation 5: Develop improved and reliable performance baselines and benchmarks
in formulas for computing award fees in order to better compare and measure the contractor’s
performance.

FAA Response: Concur. The ATCOTS Program Office redesigned its Acceptable
Performance Levels for the third award fee performance period (March to September 2010) to
include clarified expectations for computing award fees. Because the training dynamics



Appendix. Agency Comments
                                                                                               25


between contractor delivery of training and FAA self-performance vary across domains
(Terminal, En Route, Academy) as well as location (e.g., Alaska compared with Southern
California or New York), it is very difficult to separate the responsible parties when quoting
global (or average) metrics. The ATCOTS Program Office is analyzing existing metrics to
determine the best measures, baselines and benchmarks to compare and hold accountable
contractor’s performance in future performance periods. Estimated completion date:
September 30, 2011.

Recommendation 6: Implement internal procedures to require independent verifications of
whether the contactor is achieving its performance measures.

FAA Response: Concur. The FAA is currently collecting metrics in this area in order to
refine data and measure contractor performance. The ATCOTS Program Office continues to
build a robust Quality Assurance program that includes participation in Raytheon quality
assurance site visits and audits, a joint risk and opportunities management program, semi-
annual instructor evaluations and breakdown of instructor utilization by specific type of
instruction. Also, to augment our existing voucher review process, the program office recently
secured third-party cost and production audit assistance providing dedicated analyses to
ensure direct and indirect costs paid under the ATCOTS contract are allowable and
appropriate. These actions offer the potential to identify cost savings that could be redirected
to fund training development and delivery. Estimated completion date: September 30, 2011.

Recommendation 7: Modify the contract to include incentive fees with predetermined cost
targets based on accurately-defined requirements; or, if not feasible, a performance
measure(s) that provides an award fee for economical contract performance.

FAA Response: Partially Concur. The contract’s design provides incentive fees to drive cost
performance and award fees to address training quality - a balance to ensure the contractor
will not cut corners in quality to lower costs. It is not feasible to establish predetermined cost
targets based on accurately-defined requirements due to multiple factors outside the control of
the ATCOTS program management or the contractor that cause those requirements to
fluctuate (such as hiring freezes, class cancellations and training progression). The ATCOTS
Program Office included award fee performance measures to drive cost containment
beginning with the third performance period (March to September 2010). In order for the
contractor to receive a significant portion of award fees, it must ensure cost does not exceed
baseline funding each contract year. Per the contract, the FAA continues to retain control of
35 percent of the award fee for metrics of its own choosing. Estimated completion date:
December 31, 2010.

Recommendation 8: Ensure that the ATCOTS program office has sufficient number of
qualified personnel to oversee the contractual, financial and operational aspects of the
program.

FAA Response: Concur. Current staffing levels in ATO Technical Training have increased in
recent months; however, staffing remains insufficient to support a performance-based cost-
plus contract of this magnitude, scope and complexity. To partially mitigate this, the program



Appendix. Agency Comments
                                                                                            26


office has designated permanent program leads for quality, business management and contract
oversight and boosted contract support staff to better handle both strategic and day-to-day
program activities. ATO Technical Training considers ensuring the ATCOTS Program Office
has adequate staffing levels with the right qualifications a priority. The organization will
develop a staffing model to provide for a right-sized ATCOTS team. Estimated completion
date: December 31, 2011.

Recommendation 9: Develop a short- and medium-term road map detailing potential
changes to its controller training program, and the impact those changes will have on the
ATCOTS contract. The road map should include the impact that NextGen and other
modernization programs will have on training new and existing controllers.

FAA Response: Concur. ATO Technical Training has assigned a liaison specialist to be a
consultant on NextGen projected training requirements and development issues. The ATO
Technical Training liaison has also coordinated with all seven NextGen Program Element
Activities on impact analysis of NextGen technologies on training procedures and NAS
infrastructure (space and equipment requirements). To ensure that Technical Training
strategies are aligned with NextGen short- and mid-term initiatives, ATO Technical Training
developed a background paper outlining next steps needed to assess how NextGen and other
modernization programs affect how the FAA trains new and existing controllers. The
ATCOTS Program Office will communicate possible impact on ATCOTS training
development and delivery strategies to the NextGen liaison. Estimated completion date:
September 30, 2012.




Appendix. Agency Comments
